CIA-Contra-Crack Cocaine Controversy - Table of Contents
USDOJ/OIG Special Report
THE CIA-CONTRA-CRACK COCAINE CONTROVERSY:
A REVIEW OF THE JUSTICE DEPARTMENTS
INVESTIGATIONS AND PROSECUTIONS
(December, 1997)
TABLE OF CONTENTS
Epilogue (July 1998)
Executive Summary
Introduction
Oscar Danilo Blandon
Norwin Meneses
OIG Analysis of Allegations Regarding Blandon's
and Meneses' Relationship with the Contras and the CIA
Ronald Lister
Ricky Ross
Enrique Miranda-Jaime
Julio Zavala
Carlos Cabezas
Celerino Castillo
DEA's Response to Information about Contra Drug
Trafficking and Miscellaneous Cases
Conclusions
Chapter I:  Introduction
The San Jose Mercury News Articles
The Contra Story
Reaction from the Journalism Community
What Did the San Jose Mercury News Articles
Allege?
Previous Investigations Concerning Allegations of
Contra Drug Trafficking
Scope of the OIG Investigation
OIG Investigative Procedures
Structure of the OIG Report
Chapter II: Oscar Danilo Blandon
Background of Blandon
DEA Investigation of Blandon
FBI Investigation of Blandon
DEA and FBI Cooperation in the Blandon Investigation
Los Angeles Sheriff's Department Investigation of
Blandon
Los Angeles Sheriff's Department Affidavit in Support of the Search
Warrants
Execution of the Search Warrants
Search of Blandon's Residence
Search of Ronald Lister's residences
Search of Roberto Aguilar's residence
Issues Regarding the Search
Allegation that federal authorities impeded the LASD investigation
Allegation that Blandon was tipped off about the warrants
Allegation that drugs were planted and money stolen during the search
of Blandon's residence
Allegation concerning CIA interference in the Los Angeles Sheriff's
Department investigation
Lister's statements
Statements by Blandon's attorney
Allegation that evidence obtained during the searches was taken by
federal authorities from the Los Angeles Sheriff's Department
Allegation concerning dismissal of drug possession charges against
Blandon and his wife
The Initiation of the Federal OCDETF Case
Background to the OCDETF case
Meeting with Assistant District Attorney Susan Bryant-Deason
Approval of the OCDETF Case
The 1987 Los Angeles OCDETF Investigation
Investigative Steps
Confidential Informants
FBI Informants
Norwin Meneses
Meneses agrees to cooperate with DEA
Meneses and DEA Informant in California
Reaction from other law enforcement authorities concerning the use
of Meneses
Agreement concerning Meneses
Attempts to get Meneses and DEA informant back to California
Closure of the OCDETF Case
Transfer of the Case
Assessment of the OCDETF Investigation
Allegation that Blandon received special treatment
in the 1992 San Diego prosecution of him
Background
Initial Phase of the Investigation
Allegations Regarding Blandon's ties to the Contras and the CIA in
the San Diego OCDETF Investigation
Blandon's Arrest at the Border
Blandon's 1991 Arrest in Los Angeles
The Indictment
8. Blandon's Drug Trafficking Information
Blandon's Post-Cooperation Statements Regarding the Contras and the
CIA
The Written Plea Agreement
Blandon's Sentencing
The Rule 35 Motion
Disposition of Charges Against Blandon's Co-Defendants
OIG Conclusions on the Allegation that Blandon Received Special
Treatment Because of Alleged Ties to the CIA and the Contras
Blandon's Improper Receipt of a Green Card
Background
Blandon Obtains his Green Card
Tellez's Motivations in Securing Blandon's Green Card
The Receipt of Green Cards by Blandon's Wife and
Daughter
DEA Payments to Blandon
Chapter III: Norwin Meneses
Introduction
Background of Meneses
First reports on Meneses
DEA Investigations of Meneses, 1980-1986
Smith's investigations
Allegation that Smith's investigations of Meneses were inexplicably
halted
More DEA investigations of the Meneses organization
The FBI and United States Attorney's Office
Investigation of Meneses
Allegations About the Investigations
"David Morrison"
Alleged DEA Corruption
DEA's use of Meneses as an informant
Meneses' offer to cooperate and the 1987 Los Angeles OCDETF
investigation
Continued use of Meneses by the Costa Rica DEA
Indictment of Meneses in 1989
Post-Indictment Activities
DEA's use of Meneses as an informant in 1989
FBI Efforts to Locate Meneses
Costa Rica DEA reactivates Meneses
Continued investigations of Meneses
San Francisco Case
Guatemala Case
Meneses' contact with Costa Rica DEA in 1991
Meneses' 1991 Arrest in Nicaragua
Allegation that DEA Attempted to Use Meneses Against
the Sandinistas
Status of 1989 indictment
Meneses' entries into the United States
Conclusions Regarding Investigation of Meneses
Chapter IV: OIG Analysis of Allegations
Regarding Blandon's and Meneses' Relationship with the Contras and the CIA
OIG Review of Sources of Allegations
Defense Arguments in Los Angeles Big Spender Case
OIG Review of Records Seized During 1986 Search of Blandon's
Residence
Allegation that Blandon Alluded to CIA Involvement in 1994 Grand Jury
Testimony in San Francisco
Information Recorded by Law Enforcement Authorities
Claims by Ivan Torres
DEA Suspicion of Meneses' Ties to CIA
FBI Suspicion of Meneses' Ties to CIA
Allegations from Other Sources
Allegations by OIG Source-1 and Rafael Cornejo
Allegations by "David Morrison"
Allegations by Michael Ruppert
OIG Investigation Regarding Support of the Contras
by Blandon and Meneses
Blandon's Version
Meneses' Version
Contra Leaders
Blandon's Associates
FBI Los Angeles Informant
Ivan Torres
Carlos Rocha
Meneses' Associates
DEA Informant
Renato Pena
Jairo Meneses
Tony Navarro
Enrique Miranda-Jaime
Other DEA Informants
Conclusions
Chapter V: Ronald Lister
Background of Lister
Lister's Dealings with Blandon, Meneses, and the
Contras
Reports of Lister's CIA Affiliation in Connection
with the 1986 LASD Search Warrants
Lister's Alleged Foreknowledge of the LASD Warrants
Lister's Claims of a CIA Connection
Documents Seized by the LASD
Lister's Claims of CIA Affiliation Gathered by the
FBI in 1986-1987
Lister's Guilty Plea to Tax Charges
Orange County Prosecution of Lister
The 1990 San Diego Prosecution
Claims of CIA Affiliation While Lister Was
Cooperating
More Allegations by Lister Regarding the CIA at the
Time of His Sentencing
Lister's Appeal of His Sentence and Release
David Scott Weekly
OIG interview of Weekly
Federal Investigative Files on Weekly
Timothy LaFrance
Conclusions
Chapter VI: Ricky Ross
Ross' Criminal History
Ross' Statements about his Drug Empire to the Media
and OIG
The Roles of Ross and Blandon in the Spread of Crack
When Did Blandon Begin Selling Cocaine to Ross?
How much cocaine Did Blandon Sell to Ross?
Availability of Cocaine in South Central Los Angeles
Was Ross the first Los Angeles drug dealer with a Colombian supplier?
Were Ross and Blandon Responsible for the Spread of Crack Cocaine in
Los Angeles?
Did Ross and Blandon Spread Crack Across the Country?
Law Enforcement Investigations of Ross
The Freeway Ricky Task Force
Ross in Cincinnati
Other Investigative Files and Cases on Ross
Ross' Arrest on Federal Charges in Cincinnati
Background of Investigation
Ross' Guilty Plea in Cincinnati
Ross' Cooperation in Los Angeles Corruption Trials
The Texas Case
Media Attention After Ross' Release from Prison
The 1996 Case against Ross in San Diego
Background
Indictment and Information
Government Disclosures to Defense Counsel
The Government Case
The Defense Case
Conviction and Sentence
OIG Analysis of Ross' Allegations
Allegation that Ross Was Improperly Targeted Before He was Released
From Prison Because of His Prior Testimony Against Corrupt Police Officers or Because of
Racism
Allegation of Improper Targeting of Ross Before Release from Prison
Allegation that Blandon targeted Ross because of racism
Allegation that the Government Prevented Ross from Raising the CIA
Issue at Trial
Allegation that Ross was Not Guilty Because of Blandon's Affiliation
with the Contras and the CIA
Allegations of Brady Violations
Two additional post-trial matters
Allegation that Ross was just a "little fish"
Chapter VII: Enrique Miranda-Jaime
Background
Miranda's Drug Trafficking for the Sandinistas
Miranda's First Contact with United States Government
Allegations of Contra Drug Trafficking
Miranda's Version
Documentary Evidence
OIG Conclusions as to Miranda's Credibility
Miranda's 1991 Arrest
Miranda Escapes From Prison and Obtains a Visa
Miranda's Entry into the United States and Return to
Nicaragua
Conclusions
Chapter VIII: Julio Zavala
Background to the Frogman Case
The Investigation
The Arrest of Zavala and Seizure of $36,000
Disposition of Charges Against Zavala
Allegations of Zavala's Connections to the Contras
and the CIA
First Mention of the Contras in the Zavala Case
Defense Motion to Conduct Depositions in Costa Rica
Authenticity of Aviles and Rappaccioli Documents
Ruling on Defense Motion
Allegations in Declaration Regarding CIA
Preparations to Take the Depositions in Costa Rica
Unsealing of Defense Motion
Allegation that the Return of the Seized Money to
Zavala Was Caused by Intervention from the CIA
CIA Documents
Interviews of CIA Personnel
Interviews of Department of Justice Personnel
Interview of Zavala's Defense Counsel
Allegations in 1986 Newspaper Article Regarding the
Return of the Money
The San Francisco Examiner Article
U.S. Attorney Russoniello's letter to the editor
OIG Conclusions Regarding the Return of the Money
The Return of the Money
Zavala's Version
Salomon's Version
Aviles' Version
Zavala's Mother-in-law's Version
Did the Money Belong to the Contras?
Chapter IX: Carlos Cabezas
Cabezas' Allegations Concerning the "Contra
Cocaine Connection"
Cabezas' Allegation Concerning the CIA
Cabezas' Earlier Claims
FBI Investigation of Cabezas' Claim About a
"Contra Cocaine Connection"
OIG Investigation of Cabezas
Source 1
FBI Special Agent David Alba
Assistant U.S. Attorney Mark Zanides
Other Government Personnel
Julio Zavala
Troilo Sanchez
Fernando Sanchez
Doris Salomon
Horacio Pereira
Assessment of Cabezas' "Contra Cocaine
Connection" Allegations
Inconsistencies in Cabezas' Allegations Over Time
Other Concerns Regarding Cabezas' Allegations
Cabezas' Drug Ledger
Assessments of Cabezas' Credibility
OIG Conclusions on the "Contra Cocaine
Connection" Allegations
Chapter X: Celerino Castillo
Background
Castillo's Allegations
Castillo's Allegation Concerning Ilopango Airport
Investigation of Walter Grasheim
DEA Reports on Grasheim
OIG Interviews related to the Grasheim case
Felix Rodriguez
Edwin Corr
Abraham Azzam
Robert Stia
Richard Rivera
Walter Grasheim
Closing of the Grasheim case
Investigation of Carlos Amador
CIA information
DEA Information
DEA Headquarters' Review of Allegations of Contra
Drug Trafficking
Castillo's Later Interaction with Salvadoran
Personnel
OIG Interviews of other DEA and Embassy Personnel
Castillo's Allegation regarding a CIA employee
Castillo's Allegation Regarding the CIA's use of
informant STG6
Castillo's Recent List of Relevant Files
Allegation that the DEA Retaliated Against Castillo
Castillo and the Office of Independent Counsel
OIG's Evaluation of Castillo's Allegations
Chapter XI: DEA's Response to Information
About Contra Drug Trafficking And Miscellaneous Case
Introduction
General Relationship between DEA and CIA During the
Period of the Contra Revolution
Headquarters Level
The 1982 Memorandum of Understanding Between the CIA and the
Department of Justice Regarding Crimes Reporting
DEA/CIA Interaction in Costa Rica
Information the CIA Gave DEA in Costa Rica
Conclusions
Classified Memoranda from CIA to DEA on Drug
Trafficking by the "Southern Front" Contras
Other CIA Information
Information Passed By CIA Regarding Jorge Morales,
Adolfo "Popo" Chamarro, and Roberto "Tito" Chamarro
Fiers' Memorandum
DEA's Response
DEA Intelligence Section's Debriefing of Morales
quot;Follow-Up" by DEA Field Offices
Other Actions by DEA
OIG Conclusions
DEA's Investigation of Information It Received About
Contras or Contra Sympathizers
Information about Contras in General
Informant Information Received by the DEA
OIG Conclusions
John Hull
Allegations Reviewed
DEA Investigation of Drug Smuggling Allegations
Investigation of Allegations that Hull Defrauded the Overseas Private
Investment Company
Allegation that a DEA Agent helped Hull Flee Costa Rica
The Justice Department's Actions Regarding the Costa Rican
Extradition Request
Jose Orlando Bolanos
Chapter XII: Conclusions
Appendix A: Background on United States Funding
of the Contras
Appendix B: Production of Cocaine Hydrochloride
and Cocaine Base
Appendix C: History of Cocaine
Appendix D: Enrique Miranda's Entry Into the
United States and Return to Nicaragua.
Appendix E: Timelines for Blandon, Meneses,
Lister, Ross, Miranda, Zavala/Cabezas, Castillo
Appendix F: Glossary
#####